regarding the processes and procedures for approving reimbursable travel, reimbursing Agency
employees for costs incurred, obtaining reimbursement from the sponsoring organizations, and
reporting to OGE.

        We tested 25 payments made to Agency employees for reimbursable travel performed in
Fiscal Year (FY) 2005 or the first 6 months of FY 2006 to determine whether travel was in
accordance with the FTR and that the correct amounts were reimbursed. For these payments we
reviewed documentation maintained by Finance. We also tested the accuracy of Agency reports
to OGE.

        We conducted this review from May through August 2006. This review was done in
accordance with the Quality Standards for Inspections issued by the President's Council on
Integrity and Efficiency.


BACKGROUND

        NLRB employees may be approved to perform reimbursable travel paid for by a non-
Federal source. A non-Federal source includes any person or entity other than the United States
Government. The travel and reimbursement must be in accordance with the FTR and approved
in advance. Travel reimbursed by a non-Federal source must have the concurrence of the DAEO
and be reported to OGE. The Director of Administration is the NLRB DAEO. Reports to OGE
are available to the public.

         Procedures for reimbursable travel entail coordination between the traveling employee,
approving official, DAEO, and Finance. If an employee receives an invitation for reimbursable
travel, an NLRB Form 5475, Request for Authorization of Acceptance of Travel Expenses from
a Non-Federal Source, is prepared and provided to the approving official. The Chairman and the
Board Members are the authorized approving officials for their immediate staffs. The Executive
Secretary is the approving official for the remaining Board staff. The Chief Administrative Law
Judge approves for all administrative law judges. The General Counsel is the approving official
for his immediate staff and Division Directors or equivalents. Division Directors and equivalents
may approve for their subordinate staff.

        Upon approval, the Form 5475 is sent to the DAEO for concurrence. The DAEO reviews
the Form 5475 for a possible conflict of interest. After the DAEO concurs on the form, the
original is sent back to the approving official and a copy of the form is provided to a financial
specialist who is responsible for billing the sponsoring entity for agreed-upon charges. A copy is
placed in the employee's Financial Disclosure file. For travelers not subject to disclosure, the
Form 5475s are maintained together in a separate file. Copies are retained for 2 years.

         During the period October 1, 2004 to March 31, 2006, the Agency was reimbursed
$94,794 for 126 trips. These included 61 trips for $54,350 that were reimbursed by the
American Bar Association or other bar associations. Other trips were reimbursed by educational
institutions, law firms, or groups sponsoring labor relations conferences. Close to 80 percent of
the trips were taken by Board Members, the General Counsel, or their immediate staff.
                                                2
RESULTS

Approval to Accept Payment and Travel Authorization

       The FTR states that an agency may accept payment from a non-Federal source for travel
to a meeting or authorize an employee to accept payment on an agency's behalf if acceptance of
such payments is approved in advance of travel. The purpose of this approval is to eliminate any
source that might present a conflict of interest. The approval process at the NLRB includes a
concurrence by the DAEO. The FTR also requires that the employee be issued a travel
authorization before the travel begins.

Approval to Accept Payment for Travel Expenses

      We identified five trips that were taken before the DAEO concurred that accepting travel
expenses from a non-Federal entity was appropriate. Three of these trips were in our sample and
two were identified by management.

Travel Authorization

        Ten trips reviewed were taken before a travel authorization was issued. Five of the 10
trips taken by Presidential appointees and 5 of the 15 trips taken by non-Presidential appointees
were either authorized after travel began or lacked documentation of the authorization.

        Travel authorizations should be processed in advance and reviewed and approved by an
official at the highest practical administrative level who can evaluate the travel in accordance
with regulatory requirements. Although Presidential appointees may be designated to authorize
their own travel, we believe an independent review of reimbursable travel authorizations would
provide the traveler with added assurance that the travel authorization is correct.

Travel Management System

       The FTR requires employees at agencies that do not have an eTravel Service to use the
Agency's existing Travel Management System (TMS) to make travel arrangements. The FTR
defines a TMS as a service for booking common carrier, lodging accommodations, car rental
services, and providing basic management information on those activities. Carlson Wagonlit
Travel is the Agency's TMS.

       APC 00-01 states that the traveler is expected to use the Agency's Travel Management
Center to procure all common carrier tickets for official travel. Agency employees did not use
the TMS for 8 of the 25 trips tested.

Travel Agent Fees

        Reimbursable agreements may provide that the Agency be reimbursed for all costs
incurred, for only certain costs, for limited amounts, or a flat amount. Finance is responsible for
billing the travel sponsor for travel costs incurred based upon the terms of the agreement.
                                                 3
        The Agency was inconsistent in how it billed sponsoring organizations for travel agent
fees. Generally, when an outside travel agent was used, the sponsoring organization was billed
for the travel agent fee. However, when the Agency's TMS was used, the fees were not billed.
For three trips, Agency employees booked the airline travel using an outside agent that charged a
fee, the fee was included with the airfare amount on the employee’s voucher and was collected
by Finance from the sponsor. For 13 trips, the employees booked the airline travel using the
Agency's TMS and the travel agent fees were not billed or collected from the sponsor.

        The fees charged by NLRB’s travel agent were billed to and paid directly by Finance and
therefore were not vouchered by the employee. Carlson Wagonlit Travel charges $10.50 for
each airline reservation booked online and $24.50 for each reservation booked by telephone.
NLRB may, depending upon the agreement, be able to recover the travel agent fees from the
travel sponsoring organizations. Such reimbursements would provide additional funds for
Agency use.

Semiannual Report of Payments from a Non-Federal Source

        Agencies are required to report to OGE payments for travel, subsistence, and related
expenses received from non-Federal sources in connection with the attendance of employees at
certain meetings or similar functions. These items are reported semiannually using Standard
Form 326 (SF-326), Semiannual Report of Payments Accepted from a Non-Federal Source.

       The amounts reported to OGE were generally accurate. The reports for the three
semiannual periods in our review reported approximately $100 more than was received by the
Agency. This amount was related to four trips. We attributed these differences to clerical errors.
Additionally, one trip was identified on the SF-326 for which there was no reimbursable
agreement. In this instance an organization was incorrectly billed for the trip and did not
reimburse the Agency.


SUGGESTION

       We suggest that the Finance Chief:

       Implement procedures to bill the sponsoring organizations for the travel agent fees when
allowed by the reimbursable agreement.


cc: Board
    General Counsel




                                                4
